                                              OFFICE OF THE ASSISTANT
                                              SECRETARY FOR ADMINISTRATION
                                              AND MANAGEMENT
Office of Inspector General—Office of Audit




                                              DOL NEEDS TO PERFORM ELECTRONIC MEDIA
                                              SANITIZATION MORE EFFECTIVELY PRIOR TO
                                              TRANSFER OR DISPOSAL




                                                                  Date Issued: September 30, 2005
                                                                  Report Number: 23-05-028-50-598
U.S. Department of Labor
Office of Inspector General
Office of Audit                                            September 2005

                                                           DOL Needs To Perform Electronic Media
BRIEFLY…                                                   Sanitization More Effectively prior to Transfer or
                                                           Disposal
Highlights of Report Number: 23-05-028-50-598, to
the Assistant Secretary for Administration and             WHAT OIG FOUND
Management / Chief Information Officer.
                                                           The OIG found that DOL regional office computer
                                                           hard drives that were ready to be transferred or
WHY READ THE REPORT                                        disposed of were properly sanitized. The OIG found
This report contains information as to the                 that national office computer hard drives that were
effectiveness of the Department of Labor’s electronic      ready to be transferred or disposed of contained
media sanitization procedures. This report includes        varying combinations of licensed operating system
findings and recommendations as to how the                 software, licensed application software, and
Department can better sanitize electronic media            unencrypted data of a sensitive, personal and/or
prior to its transfer or disposal.                         confidential nature.

WHY OIG DID THE AUDIT                                      WHAT OIG RECOMMENDED
News stories show a disturbing trend concerning the        We recommended that the Assistant Secretary for
disposal of surplus electronic media. CNET news            Administration and Management take the following
reported two Massachusetts Institute of Technology         actions:
students purchased 158 used disk drives for less
than $1000. These students found 129 disk drives
                                                              •   Review the implementation of the
were still working, and contained thousands of active
                                                                  department-wide electronic media
credit card numbers, along with pharmaceutical
                                                                  sanitization policy for uniformity and develop
records, legal correspondence, corporate
                                                                  verification procedures that include testing.
memoranda, and email messages.
                                                              •   Coordinate with each Agency’s Information
                                                                  Technology Security Officer to ensure future
During survey work in 2003, OIG found that 85
                                                                  IT specific security training includes proper
percent of the computers that were ready to be
                                                                  sanitization of electronic media.
transferred or disposed of contained varying
degrees and combinations of licensed operating                •   Periodically verify agencies’ effectiveness in
system software, licensed application software, and               sanitizing electronic media to assure
data of a sensitive, personal, and/or confidential                adequate security.
nature. As a result of this survey work, the                  •   Research emerging technologies as an
Department took immediate corrective action. To                   additional measure to protect DOL
follow-up on the correction action taken by the                   information assets.
Department, we initiated the audit and testing of the
Department’s policies and procedures regarding             The Office of the Assistant Secretary for
electronic media sanitization.                             Administration and Management generally agreed
                                                           with the report and has begun taking actions to
The objective of our audit was to determine if DOL is      address the findings and recommendations.
effectively sanitizing surplus electronic media prior to
transfer or disposal in order to minimize the risk
associated with unintentional release of information.

READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:
http://oig.dol.gov/public/reports/oa/2005/23-05-028-
50-598.pdf
                                                                     DOL Needs to Perform Electronic Media
                                                   Sanitization More Effectively Prior to Transfer or Disposal




Table of Contents
                                                                                                                    PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

    All DOL Regional Office Computer Hard Drives Were Sanitized ......................... 6

    Half of DOL National Office Computer Hard Drives Were Not
    Properly Sanitized ................................................................................................... 6


APPENDICES ............................................................................................................... 13

    Background ............................................................................................................ 15

    Objective, Scope, Methodology, and Criteria ...................................................... 17

    Acronyms and Abbreviations ............................................................................... 21

    Agency Reponse to Draft Report.......................................................................... 23




U.S. Department of Labor—Office of Inspector General                                                                        1
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                            U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal




Executive Summary
We conducted a performance audit of the Department of Labor (DOL) to determine if
surplus electronic media were being effectively sanitized prior to transfer or disposal.

The results of a limited survey conducted by the Office of Inspector General (OIG) in
2003, found that 85 percent of the surplus computers tested contained varying degrees
and combinations of licensed operating system software, licensed application software,
and data of a sensitive, personal, and/or confidential nature. As a result of the survey,
the OIG issued Alert Report Number 23-03-009-04-001, Electronic Media Disposal, to
the Chief Information Officer (CIO) on March 27, 2003. In response to that report, the
CIO took immediate corrective action, declaring a moratorium on the release of surplus
electronic media, and updating disposal procedures to address the sanitization of
electronic media. To follow up on the corrective action taken by the CIO, we initiated
the audit and testing of the Department’s policies and procedures regarding electronic
media sanitization.

We performed this audit in accordance with Generally Accepted Government Auditing
Standards issued by the Comptroller General of the United States.

The objective of our audit was to determine if DOL is effectively sanitizing surplus
electronic media prior to transfer or disposal in order to minimize the risk associated
with unintentional release of information.


Results

We found:

   1. Regional office agencies’ computer hard drives that were ready to be transferred
      or disposed of were properly sanitized; and

   2. National office agencies’ computer hard drives that were ready to be transferred
      or disposed of contained varying degrees and combinations of licensed operating
      system software, licensed application software, and unencrypted data of a
      sensitive, personal and/or confidential nature.

We attribute unsanitized computer hard drives to weaknesses and/or noncompliance
with DOL procedures in assuring electronic media are being properly sanitized during
the disposal phase of a system’s development life cycle. The DOL and its agencies do
have electronic media sanitation policies and procedures to protect licensed computer
software and electronically stored data from unintentional release during the process of
transfer or disposal. However, procedures for sanitizing electronic media allow for
inconsistencies and/or bypassing certain steps.

U.S. Department of Labor—Office of Inspector General                                           3
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal



Recommendations

We recommend the Assistant Secretary for Administration and Management (ASAM)
take the following actions:

    1. Review the department-wide electronic media sanitization policy for uniformity,
       develop verification procedures that include testing, and enforce the
       implementation of the updated procedures throughout the sanitization and
       disposal process.

    2. Coordinate with each Agency’s Information Technology (IT) Security Officer to
       ensure future IT-specific security training includes proper sanitization of
       electronic media.

    3. As a part of the Office of Chief Information Officer’s testing of DOL’s information
       security program, periodically verify agencies’ effectiveness in sanitizing
       electronic media to assure adequate security at the disposal phase of a system’s
       life cycle.

Additionally, we recommend the ASAM take the following long-term action:

    4. Research emerging technologies, e.g., file encryption software, as an additional
       measure to protect DOL information assets throughout the Department.


Office of Assistant Secretary of Administration (OASAM) and Management Response

OASAM management provided a written response to the draft report issued
September 30, 2005. OASAM concurred with the findings and generally agreed with
the recommendations. In their response, OASAM provided information on the actions
taken to resolve the recommendations.

OIG Conclusion

Based on the OASAM response to the draft report, all four recommendations are
resolved.

Following our recommendations, we have provided management’s written response and
the OIG’s conclusion. The OIG’s conclusion specifies the actions that need to be taken
to close the recommendations.




4                                            U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal




U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report

Patrick Pizzella
Assistant Secretary of Administration
 and Management
Chief Information Officer


We conducted a performance audit of the DOL to determine if surplus electronic media
were being effectively sanitized prior to transfer or disposal.

During our survey work in 2003, we found that 85 percent of the computers that were
ready to be transferred or disposed of contained varying degrees and combinations of
licensed operating system software, licensed application software, and data of a
sensitive, personal, and/or confidential nature. As a result of this survey work, the
Department took immediate corrective action. To follow up on the corrective action
taken by the CIO, we initiated the audit and testing of the Department’s policies and
procedures regarding electronic media sanitization.

We tested 24 computer hard drives from the DOL regional offices and 22 computer hard
drives from the DOL national offices. In the DOL regional offices, we found electronic
media were properly sanitized. In the national office, we found 11 of the 22 computer
hard drives tested were not properly sanitized. On those 11 computer hard drives, we
found sensitive DOL information, financial information of DOL program participants and
personal information as well as licensed DOL software and operating systems.

We performed this audit in accordance with generally accepted government auditing
standards issued by the Comptroller General of the United States.

Background information pertaining to our audit is detailed in Appendix A. Our audit
scope, methodology, and criteria are detailed in Appendix B.




U.S. Department of Labor—Office of Inspector General                                           5
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal

Objective – Is the Department of Labor effectively sanitizing surplus electronic
media prior to transfer or disposal in order to minimize the risk associated with
unintentional release of information?


Results and Findings

The table below shows the number of surplus computer hard drives tested by location,
and the types of information found to be present.

                              Testing Results by Location
                                # of        Licensed       Licensed      Sensitive,
                              Computer      Operating     Application   Personal, or
                 Office      Hard Drives     System        Software     Confidential
                Location       Tested        Found          Found       Data Found
             National             22            11            8              5
             Philadelphia         6             0             0              0
             Denver               5             0             0              0
             Chicago              3             0             0              0
             Dallas               10            0             0              0
             TOTALS               46            11            8              5



All DOL Regional Office Computer Hard Drives Were Sanitized

Of the 24 computer hard drives tested from the DOL regional offices, we found no
computer hard drives containing sensitive, personal and/or confidential information,
licensed operating system, or application software.

Half of DOL National Office Computer Hard Drives Were Not Properly Sanitized

Of the 22 computer hard drives tested from the DOL national offices, we found 11
computer hard drives contained sensitive, personal and/or confidential information,
licensed operating system and/or application software.

From the 11 unsanitized computer hard drives, we identified the following:

    •   11 Licensed Operating Systems: Windows 98 (3), Windows XP (4), Windows NT
           (3), and Solaris (1)

    •   8 Licensed Software Applications: MS Office Suite




6                                            U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                           DOL Needs to Perform Electronic Media
                                         Sanitization More Effectively Prior to Transfer or Disposal

Also, from 5 of the 11 unsanitized computer hard drives, OIG recovered information that
is considered sensitive, personal, and/or confidential. The types of sensitive, personal
and/or confidential information included:

   •   Over 4,000 names and social security numbers of US service men and women
       who were Job Training Partnership Act clients;

   •   A draft report of the Department of Labor Critical Asset List, including system
       name and identification, physical location of system, function of system, and
       summary of impact if system becomes unavailable;

   •   An Employment Standards Administration (ESA) Voucher and Schedule of
       Payments for Federal Employees’ Compensation Act (FECA) recipients, dated
       7/26/2002. This report includes recipient name, address, banking account
       number, bank routing number, and amount of FECA check received for hundreds
       of recipients;

   •   A personal resume;

   •   A file containing an employee’s system user ID and password; and

   •   A phone and address contact list for a Boy Scout troop.

The table below shows, by agency, the surplus computer hard drives OIG tested and
the three types of information found to be present.


                             Testing Results by Agency
                              # of         Licensed       Licensed       Sensitive,
                            Computer       Operating     Application    Personal, or
                           Hard Drives      System        Software      Confidential
                Agency       Tested         Found          Found        Data Found
            OASAM              21               4              3              1
            ETA                 2              1               0              1
            OIG                 5              0               0              0
            MSHA                1              1               0              0
            ESA                17               5              5              3
            TOTALS             46              11              8              5



OIG’s testing results demonstrated that there are weaknesses with the Department’s
procedures to assure electronic media are being properly sanitized during the disposal
phase of a system’s life cycle.



U.S. Department of Labor—Office of Inspector General                                              7
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal

We attribute unsanitized computer hard drives to the weaknesses and/or
noncompliance with DOL procedures in assuring electronic media are being properly
sanitized. Specifically, procedures for sanitizing electronic media allow for
inconsistencies and/or bypassing certain steps, verification procedures are not working
as designed, agencies are not properly transferring media to OASAM, and there is no
requirement for training personnel. The following identify examples of the weaknesses:

    •    In evaluating departmental procedures, we reviewed a departmental
         memorandum dated January 26, 2005, reminding agencies of DOL procedures
         for disposing of computers and electronic media. In this memorandum there are
         different procedures for Departmental Management (DM) agencies1, non-DM
         agencies2 in the Frances Perkins Building, and other non-DM agencies not
         located in the Frances Perkins Building. Each of these three groups has distinct
         processes and procedures to follow, which allow for inconsistencies and/or
         bypassing certain steps at the national and regional offices. For DM agencies,
         the Computer Technology Center (CTC) is the responsible organization for
         sanitizing departmental agencies’ electronic media. The memorandum also
         established that the CTC is responsible for completing verification of the
         sanitization’s effectiveness. Establishing the CTC to be responsible for both
         sanitizing and verifying its own work led to the transfer and disposal of electronic
         media that contains inappropriate information.

    •    The same memorandum additionally states, as part of the disposal process,
         agencies are required to document the sanitization of electronic media prior to its
         transfer or disposal using the Electronic Media Disposal Sanitation Certificate
         (DL1-55A)3. Of the eight agencies’ policies and procedures4 we reviewed,
         procedures for two agencies, MSHA and ESA, specify the use of in-house forms
         rather than the use of the official form, DL1-55A. One agency, BLS, does not
         document the sanitization of electronic media prior to transfer or disposal.

    •    Prior to the January 26, 2005 memorandum, surplus computers were being
         transferred to the Business Operations Center (BOC) for disposal without the
         required disposition documentation. Of the 12 computers we selected from the
         Frances Perkins Building loading dock for testing; only 5 had complete
         documentation. BOC management acknowledged that 7 of the 12 computers
         selected were machines that were transferred to BOC for disposal without proper
         documentation. In addition, after the memorandum was issued, additional

1
  DM agencies are defined as agencies that utilize the services of Office of Assistant Secretary for Administration
(OASAM) and Management for technical support, e.g., Office of Chief Financial Officer, Office of the Solicitor,
Women’s Bureau, and OASAM.
2
  Non-DM agencies are defined as agencies that maintain their own technology support staff: Occupational Safety
and Health, Bureau of Labor Statistics, Office of Inspector General, Employment Training Administration, and
Employment Standards Administration.
3
  This is not a new requirement; the memorandum reiterates and clarifies procedures previously issued by the
Department of Labor Management Series.
4
  There are eight agencies in the department with policy and procedures for the sanitizing and disposal of electronic
media, they are: OASAM, BLS, EBSA, ESA, ETA, MSHA, OIG, and OSHA.

8                                                   U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal

       computers containing unsanitized computer hard drives were found in DOL
       hallways.

   •   OASAM personnel stated that staff responsible for the proper sanitization of
       electronic media were not getting the necessary training.

The Federal Information Security Management Act (FISMA) of 2002 requires agencies
to:
      . . . (b) Agency Program. . . (C) ensure that information security is
      addressed throughout the life cycle of each agency information system. . . .

National Institute of Standards and Technology (NIST) Guidance, Special Publication
800-26, establishes:

       . . . Like other aspects of an IT system, security is best managed if
       planned for throughout the IT system life cycle [emphasis added].
       There are many models for the IT system life cycle but most contain five
       basic phases: initiation, development/acquisition, implementation,
       operation, and disposal [emphasis added]. . . .

The Department of Labor Manual Series, (DLMS) 9 – Information Technology, Chapter
300, Management and Accountability of Information Resources, section 306 C (11),
page 9, states that Agency Heads are responsible to:

       Document that appropriate measures have been taken to protect against
       unintentional release of DOL information when information resources are
       processed through excess property procedures or donated outside of
       DOL.

Additionally, the DLMS 2 – Administration, Chapter 100, DOL Property Management,
section 108 D (4), page 17 states:

       Electronic Media Disposal Sanitation Certificate (DL[1-]55A) must be
       completed for all sanitized electronic media.

The DLMS 9 - Information Technology, section 407 A, pages 4-8 states that the CIO:

       . . . must develop and implement the Department-wide ISS [Information
       System Security] program and ensure that agencies are carrying out
       agency-wide ISS programs.

The manual further states that the CIO is responsible to:

       . . . develop and/or oversee development of:

          •   Information technology policies;

U.S. Department of Labor—Office of Inspector General                                           9
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal

           •   Standards, plans and guidance;
           •   Architectures, processes, and methodologies

        that ensure all information stored, disseminated, or transmitted by
        DOL-owned information systems or by other systems provided for DOL
        use under contract or subcontract is properly safeguarded against
        unauthorized access, use modification, destruction, or denial of service
        through he integration of management, operational, and technical controls.

OASAM memorandum, Reminder: Disposing of Computers and Electronic Media,
dated January 26, 2005, states that any electronic media transferred to OASAM for
disposal must be accompanied by a DL1-55A Electronic Media Sanitization Disposal
Certificate that has been signed by the appropriate agency official. The memorandum
also states that,

        . . . at no time should CPUs or other electronic media be left unattended in
        common areas, such as hallways. Instead, it must be stored in the
        internal office space of the DOL Agency to which it is assigned until it has
        been disposed of properly.

Without implementing and following consistent sanitization procedures and establishing
a sound verification process that includes testing across the Department, adequate
sanitization of electronic media cannot be assured and may lead to intentional and/or
unintentional release of information, which may compromise the Department’s security
of its infrastructure, information assets, employees, and the public’s trust.


Recommendations

We recommend the ASAM take the following actions:

     1. Review the department-wide electronic media sanitization policy for uniformity,
        develop verification procedures that include testing, and enforce the
        implementation of the updated procedures throughout the sanitization and
        disposal process.

     2. Coordinate with each Agency’s Information Technology (IT) Security Officer to
        ensure future IT-specific security training includes proper sanitization of
        electronic media.

     3. As a part of the Office of Chief Information Officer’s testing of DOL’s information
        security program, periodically verify agencies’ effectiveness in sanitizing
        electronic media to assure adequate security at the disposal phase of a system’s
        life cycle.



10                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal

Additionally, we recommend the ASAM take the following long-term action:

   4. Research emerging technologies, e.g., file encryption software, as an additional
      measure to protect DOL information assets throughout the Department.



Agency Response

OASAM management submitted to OIG their comments on the draft report. These
comments were embedded into the draft report by OASAM and forwarded to OIG as an
attachment to the Deputy Assistant Secretary for Operations, September 30, 2005,
memorandum to the Assistant Inspector General for Audit. The comments are
excerpted below.

   1. OASAM management agrees with the first recommendation. The OASAM Office
      of the Chief Information Officer (OCIO) will review the Department’s policies for
      electronic media sanitization to ensure consistency in the implementation of
      procedures throughout the agencies. Since the initial audit in December 2004,
      the Department has revised and implemented new procedures for sanitizing
      electronic media and its tracking disposal. Additionally, further guidelines have
      been drafted to ensure that procedures are consistent and that periodic reviews
      are performed to ensure that electronic media are properly sanitized and that all
      data are no longer retrievable. These guidelines will be issued in the first quarter
      of FY 2006.

   2. OASAM management agrees with the second recommendation. The OCIO
      provided training on electronic media protection and sanitization in the FY ’05
      Computer Security Awareness and Training (CSAT) required for all DOL
      employees. Additionally, the users identified as having significant security
      responsibilities were required to take supplementary training via the USA
      Learning Karta library, which contains more specific information with respect to
      electronic media sanitization. In consultation with each Agency’s Information
      Technology (IT) Security Officer, the OCIO will review the planned curriculum for
      the FY ’06 CSAT to ensure that the topic continues to be adequately covered.

   3. OASAM management agrees with the third recommendation. Updated
      guidelines have been drafted for electronic media sanitization. The guidelines
      specify that the Agency Information Security Officers (ISOs) are to perform
      periodic verification of media sanitization and that testing be performed based on
      the sensitivity of the data resident on the system or media. The guidance further
      calls for separation of duties between the Agency ISO and the staff performing
      the media sanitization process so that verification is an independent function. In
      addition, the OCIO will periodically evaluate the effectiveness of the electronic
      media sanitization policy and guidelines implementation. The updated guidelines
      will be issued in the first quarter of FY 2006.

U.S. Department of Labor—Office of Inspector General                                          11
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal



     4. OASAM Management agrees with the fourth recommendation and has an
        existing process that is well adapted to its implementation. Emerging
        technologies are reviewed and approved by the Technical Review Board (TRB)
        and its Subcommittees – Enterprise Architecture Subcommittee (EASC), IT
        Security Subcommittee (ITSSC) and the IT Architecture Subcommittee (ITASC).
        The ITASC proactively researches the industry to ensure the Department is
        abreast of new and emerging technologies. The ITASC is then responsible for
        providing recommendations to the EASC regarding the impact of the emerging
        technology on the Department’s infrastructure. The ITSSC and the EASC review
        the technology from a security and overall infrastructure perspective to ensure
        there are no security risks associated with it’s implementation and to ensure that
        the technology fits into the Department’s and the Federated EA, which includes
        the use of secure technologies and standards. The TRB and its subcommittees
        are all comprised of representatives from each agency as well as advisors from
        each OCIO program area – Security, Capital Planning, and Enterprise
        Architecture. This existing representative body will continue to implement the
        governance process, referenced above, that ensures compliance to
        recommendation four.


OIG Conclusion

Based on the OASAM response to the draft report, all four recommendations are
resolved.

To close recommendation 1 and recommendation 3, OASAM should provide the new
guidelines to the OIG for testing to ensure the guidelines reduce the risk of unsanitized
electronic media from leaving the Department.

To close recommendation 2, OASAM should provide the OIG access to review the
FY ’06 CSAT to ensure that the topic is adequately covered.

To close recommendation 4, OASAM should provide documentation of the TRB and
subcommittee research of products for securing information at the desktop level, such
as file level encryption.




Elliot P. Lewis
August 26, 2005




12                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal




Appendices




U.S. Department of Labor—Office of Inspector General                                          13
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal

                                                                                 APPENDIX A
BACKGROUND


Current news stories show a disturbing trend concerning the disposal of surplus
electronic media. CNET news reported two Massachusetts Institute of Technology
students purchased 158 used disk drives for less than $1,000. These students found
129 disk drives were still working, and contained thousands of credit card numbers,
medical records, and detailed personal and financial information. The Washington Post
recently published an article stating 40 million computers became obsolete in 2001.
Many of these obsolete computers are being shipped to foreign countries. In the past,
reports have surfaced that federal agencies have disposed of surplus electronic media
without taking appropriate measures to erase the information stored on the media. This
can lead to disclosure of sensitive information, embarrassment to the agency, costly
investigations, and other avoidable consequences.

In 2003, we conducted a survey of electronic media disposal in the Department of
Labor. We tested 21 surplus computers from the OASAM loading docks at the national
office, and found that 85 percent of them contained licensed software and/or
recoverable data.

Federal Regulations mandate that government agencies protect data maintained about
individual citizens from unauthorized release. Policies and procedures should be
established to protect DOL licensed software and sensitive data stored on electronic
media before release, transfer, or disposal. Our survey work during the planning phase
indicated that DOL management had not established or implemented policies and
procedures sufficiently specific to prevent the unintentional release of licensed software
and sensitive data stored on electronic media. On March 27, 2003, an Alert Report was
issued to the CIO recommending a moratorium on the release of surplus computers
until hard disk drives could be sufficiently sanitized. We also recommended the CIO
update policy and provide guidance to the agencies in this area. In response to that
report, the CIO took immediate corrective action, declaring a moratorium on the release
of surplus electronic media, and updating disposal procedures to address the
sanitization of electronic media.




U.S. Department of Labor—Office of Inspector General                                          15
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal

                                                                                 APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA



Objective

The following is the objective of the audit:

   Is the Department of Labor effectively sanitizing surplus electronic media prior to
   transfer or disposal in order to minimize the risk associated with unintentional
   release of information?


Scope

Our audit included a departmental level review of the sanitization and disposal of
electronic media by agencies. We made a judgmental selection of electronic media that
was being processed for disposal. We tested the disposed electronic media to
determine if it was sanitized. If we determined that it was not sanitized, we performed
additional tests to identify if there were any 1) licensed operations system, 2) licensed
application system and 3) sensitive, personal or confidential information on the
electronic media.

Audit fieldwork was conducted from December 21, 2004 through August 26, 2005, at
DOL Headquarters in the Frances Perkins Building in Washington, DC, and at DOL
regional offices.


Methodology

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards, issued by the Comptroller General of the United States, and included tests
on internal controls, as we considered necessary, to satisfy the objectives of the audit.

We acquired electronic media deemed for disposal from various sources and locations
in DOL to determine if sanitation had occurred. We performed further analysis of DOL
and its agencies’ policies and procedures for compliance with Federal and its own
policies and procedures.

We made a judgmental selection of electronic media that was being processed for
disposal. In some instances, DOL employees contacted us when electronic media was
transferred or disposed. We judgmentally selected the media based upon size and
location of the disposed media. In addition, we selected media we found abandoned in



U.S. Department of Labor—Office of Inspector General                                          17
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal

hallways. Our sampling was selected in this manner due to the infrequent disposal of
media and the decentralization of DOL.

From those samples, we tested the media using procedures known as a keyboard
attack, which consists of recovering information using tools and software that is readily
available to any user.

To understand the Federal and DOL requirements of electronic media sanitization and
disposal process, we obtained an understanding of the information listed in the criteria
section.

We reviewed OASAM policies and procedures related to the disposal of surplus
electronic media. We also reviewed the policies and procedures of the departmental
agencies to ensure compliance with DOL policy.




18                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal

Criteria

We used the following criteria to perform this audit:

   •   Government Accountability Office manual, Federal Information System Controls
       Audit Manual (FISCAM)
   •   Federal Information Security Management Act 0f 2002 (FISMA)
   •   DLMS 2 Administration, Chapter 100 – DOL Property Management.
   •   DLMS 9 Information Technology, Chapter 400 – Security
   •   DLMS 9 Information Technology, Chapter 300 – Management and Accountability
       of Information Resources
   •   Department of Labor Systems Development Lifecycle Management Manual,
       version 2.1
   •   Department of Labor Information Technology Center Standard Operating
       Procedure: Media Sanitation for Surplus Equipment, National Office ECN
   •   OASAM memorandum: Reminder: Disposing of Computers and Electronic
       Media, dated January 26, 2005
   •   NIST Special Publication 800-64 Rev. 1, Security Considerations in the
       Information System Development Life Cycle
   •   NIST Special Publication 800-12, An Introduction to Computer Security: The
       NIST Handbook
   •   NIST Special Publication 800-26, Self-Assessment Guide for Information
       Technology Systems
   •   Public Law 93-579, 5 U.S.C. 552a, The Privacy Act of 1974
   •   Department of Labor Computer Security Handbook, version 2.0
   •   NIST Media Sanitization Procedures
   •   NIST Special Publication 800-18, Guide for Developing Security Plans For
       Information Technology Systems




U.S. Department of Labor—Office of Inspector General                                          19
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal




                     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal

                         APPENDIX C
ACRONYMS AND ABBREVIATIONS



BLS               Bureau of Labor Statistics
BOC               Business Operations Center, OASAM
CIO               Chief Information Officer
CTC               Computer Technology Center
DOL               Department of Labor
EBSA              Employee Benefits Security Administration
ECAB              Employees’ Compensation Administration Board
ESA               Employment Standards Administration
ETA               Employment and Training Administration
FECA              Federal Employees’ Compensation Act
FISMA             Federal Information Security Management Act
FISCAM            Federal Information System Controls Audit Manual
MSHA              Mine Safety and Health Administration
NIST              National Institute of Standards and Technology
OASAM             Office of the Assistant Secretary of Administration and Management
OIG               Office of Inspector General
OSHA              Occupational Safety and Health Administration
SOL               Office of the Solicitor
WB                Women’s Bureau




U.S. Department of Labor—Office of Inspector General                                          21
Report Number: 23-05-028-50-598
DOL Needs to Perform Electronic Media
Sanitization More Effectively Prior to Transfer or Disposal




                     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                           U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 23-05-028-50-598
                                                        DOL Needs to Perform Electronic Media
                                      Sanitization More Effectively Prior to Transfer or Disposal



                                                                                 APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                          23
Report Number: 23-05-028-50-598
